 Office of Inspector General

 Audit Report




       WATER


Colorado Water Quality Standards,
Monitoring, and Reporting Program


  Report No. E1HWF8-07-0004-9100093


           March 10, 1999
Inspector General Division   Central Audit Division
 Conducting the Audit:       Kansas City, Kansas

Region Covered:              Region 8

Program Office Involved:     Office of Ecosystems Protection
                              and Remediation
                                           March 10, 1999

MEMORANDUM
SUBJECT: Colorado’s Water Quality Standards, Monitoring, and Reporting
         Audit Report E1HWF8-07-0004-9100093

FROM:          Bennie S. Salem
               Divisional Inspector General

TO:            William P. Yellowtail
               Regional Administrator
               Region 8

       Attached is our report entitled Colorado’s Water Quality Standards, Monitoring, and
Reporting. We discussed our findings with your staff and issued a draft report. We summarized
your comments in the final report and included your complete response in Appendix I.

ACTION REQUIRED

        In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the
action official, are required to provide this office a written response to the audit report within 90
days of the final audit report date. For corrective actions planned but not completed by the
response date, reference to specific milestone dates will assist in deciding whether to close this
report.

        We appreciate the cooperation your staff provided throughout the audit. We especially
appreciate the program staff's assistance and cooperation during the audit. The staff exhibited a
genuine interest in working with us to improve the water quality program and helped add value to
this audit.

        This audit report contains findings that the Office of Inspector General (OIG) has
identified and corrective actions OIG recommends. This audit report represents the opinion of
OIG, and the findings in this audit report do not necessarily represent the final EPA position.
Final determinations on matters in this audit report will be made by EPA managers in accordance
with established EPA audit resolution procedures.

       We have no objections to the release of this report to the public. If you have any
questions, please call Connie Walton, Audit Manager, at (913) 551-7007. Please refer to report
number E1HWF8-07-0004-9100093 on any correspondence.
Attachment
                                             Colorado Water Quality Standards,
                                             Monitoring, and Reporting Program


               EXECUTIVE SUMMARY


INTRODUCTION     Water is one of our vital resources and must be protected.
                 One of the Environmental Protection Agency’s (EPA) 10
                 strategic goals is for clean and safe water. This goal
                 includes ensuring our surface waters, such as lakes, rivers,
                 wetlands, and oceans sustain human health, support and
                 maintain aquatic life, and provide for both recreational and
                 economic activities. EPA and states developed water
                 quality programs to protect surface waters by identifying
                 how the water is to be used, setting standards to meet the
                 use, and then monitoring and reporting on how well the
                 water quality supports the use. EPA and states use their
                 water quality information as a basis for, and to measure
                 performance of, their programs to control and clean up
                 water pollution. This audit is one in a series of state water
                 quality audits conducted by the Office of Inspector General
                 (OIG) to develop a national picture of the performance of
                 state water quality programs.



OBJECTIVES       Our overall objective was to determine whether Colorado’s
                 water quality program effectively protects its surface water
                 to sustain human health and aquatic life, and provides for
                 both recreational and economic activities. Our specific
                 objectives were to answer the following questions:

                        P       Has Colorado implemented procedures to
                                develop water quality standards that will
                                protect the State’s water quality?

                        P       Has Colorado implemented procedures to
                                test and assess the quality of all appropriate
                                waters in the State?

                        P       Are State reports on water quality complete,
                                accurate, and useful for program
                                management?


                            i              Report No. E1HWF8-07-0004-9100093
                                               Colorado Water Quality Standards,
                                               Monitoring, and Reporting Program



                          P        Has Region 8 implemented effective
                                   procedures to approve Colorado water
                                   quality standards and evaluate the State’s
                                   water quality standards setting, testing,
                                   assessing, and reporting?



RESULTS IN BRIEF   Overall, Colorado developed a water quality program that
                   generally protects its surface water to sustain human health
                   and aquatic life, and provides for recreational and economic
                   activities. Colorado implemented procedures to develop
                   comprehensive water quality standards to protect State
                   water quality. However, in implementing any program as
                   complex as the Clean Water Act, improvements can be
                   made in adopting and supporting decisions for water quality
                   standards. Colorado’s monitoring program employed
                   appropriate monitoring methods and procedures to
                   evaluate the waters of the State; although, like other states,
                   Colorado has faced difficult challenges in maintaining a
                   comprehensive water quality monitoring program.
                   Colorado water quality reports varied in completeness and
                   accuracy.

                   Region 8 priorities in the oversight of the Colorado water
                   quality program reflected the Office of Water priorities.
                   Region 8 oversight efforts focused on the development of
                   standards while placing little emphasis on Colorado’s
                   monitoring activities. Region 8 implemented effective
                   procedures to approve and evaluate Colorado’s water
                   quality standards setting; however, it had not developed
                   procedures to oversee and evaluate Colorado’s water
                   quality testing, assessing, and water quality assessment
                   reporting. Colorado, in turn, historically has placed more
                   attention on the development of its standards program than
                   on monitoring, assessing, and reporting activities.




                              ii             Report No. E1HWF8-07-0004-9100093
                                                Colorado Water Quality Standards,
                                                Monitoring, and Reporting Program

RECOMMENDATIONS    We recommend the Regional Administrator:

                          P         Work with Colorado to improve its support
                                    for water quality standards decisions and
                                    disapprove future water quality standards
                                    submissions which lack adequate analysis
                                    and support.

                          P         Assist Colorado in increasing the
                                    comprehensiveness of its state water quality
                                    monitoring program.

                          P         Persuade Colorado to follow national
                                    guidance in preparing the water quality
                                    assessment report to include complete,
                                    accurate information.

                          P         Develop procedures to oversee and evaluate
                                    Colorado’s water quality testing, assessing,
                                    and water quality assessment reporting.



AGENCY AND STATE   Region 8 and Colorado generally agreed with the
COMMENTS AND       recommendations. Region 8 agreed that coordinated work
OIG EVALUATION     with the State is needed for continued program
                   improvements. Region 8 documented several planned
                   technical and program support activities and commitments
                   to work with and support Colorado programs. Colorado
                   welcomed assistance in its ongoing efforts to continually
                   enhance water quality testing, assessing, and water quality
                   assessment reporting.




                              iii             Report No. E1HWF8-07-0004-9100093
                                                                                          Colorado Water Quality Standards,
                                                                                          Monitoring, and Reporting Program

                                             TABLE OF CONTENTS

                                                                                                                                  Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                   SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                   PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2        ALTHOUGH COLORADO’S STANDARDS PROGRAM IS STRONG,
         ADDITIONAL STANDARDS AND MORE SUPPORT FOR DECISIONS ARE
         NEEDED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   COLORADO DEVELOPED AND ADOPTED CRITERIA WHERE EPA
                   HAD NOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   COLORADO DID NOT ADOPT THE NATIONAL SWIMMABLE USE
                   CLASSIFICATION FOR ALL STATE WATERS . . . . . . . . . . . . . . . . . . . . . . . 8

                   COLORADO SHOULD ADOPT CLEAN WATER ACT CRITERIA
                   FOR ALL WATERS CLASSIFIED TO PROVIDE DRINKING WATER . . . . . 9

                   COLORADO COULD BETTER SUPPORT CRITERIA LIMITS FOR
                   POLLUTANTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                   CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                   RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                   AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . . 12

3        PROGRESS IN COLORADO’S MONITORING PROGRAM IS STILL POSSIBLE . 14

                   STATES MUST ESTABLISH APPROPRIATE TESTING . . . . . . . . . . . . . . 14
                                                                               Colorado Water Quality Standards,
                                                                               Monitoring, and Reporting Program

             COLORADO’S MONITORING PROGRAM IS EVOLVING . . . . . . . . . . . . . 14

             COLORADO COULD UTILIZE MORE ADVANCED MONITORING
             TECHNIQUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

             FORMAL PROCESS TO OBTAIN ORGANIC MONITORING DATA
             WOULD IMPROVE WATER QUALITY ASSESSMENTS . . . . . . . . . . . . . . 15

             CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

             RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

             AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . . 16

4   COLORADO’S EMPHASIS ON WATER QUALITY REPORTS WAS
    INCONSISTENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

             STATES MUST REPORT ON QUALITY OF THEIR WATERS . . . . . . . . . 17

             COLORADO’S IMPAIRED WATERBODY LIST APPEARED TO BE
             COMPLETE AND ACCURATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

             COLORADO’S WATER QUALITY ASSESSMENT REPORT WAS
             NOT COMPLETE OR ACCURATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

             ASSESSMENT DATABASE COULD IMPROVE STATE PROCESSES . . . . 19

             CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

             RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

             AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . . 20

5   REGION 8 OVERSIGHT MIRRORED OFFICE OF WATER DIRECTION . . . . . . . 21

             WATER MANAGEMENT AGREEMENT LISTS PRIORITIES AND
             MEASURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

             REGION 8 ACTIVELY PARTICIPATED IN COLORADO’S
             STANDARDS PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

             REGION 8 HAD LIMITED INVOLVEMENT IN COLORADO’S
             MONITORING PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                                                                                  Colorado Water Quality Standards,
                                                                                  Monitoring, and Reporting Program

                CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . . 23


EXHIBITS

1     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


APPENDICES

I     AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

II    STATE RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

III   ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

IV    DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50
                                      Colorado Water Quality Standards,
                                      Monitoring, and Reporting Program

             CHAPTER 1

          INTRODUCTION

PURPOSE   Water is one of our vital resources and must be protected.
          One of the Environmental Protection Agency’s (EPA) 10
          strategic goals is for clean and safe water. This goal
          includes ensuring our surface waters, such as lakes, rivers,
          wetlands, and oceans sustain human health, support and
          maintain aquatic life, and provide for both recreational and
          economic activities. EPA and states developed water
          quality programs to protect surface waters by identifying
          how the water is to be used, setting standards to meet the
          use, and then monitoring and reporting on how well the
          water quality supports the use. EPA and states use their
          water quality information as a basis for, and to measure
          performance of, their programs to control and clean up
          water pollution.

          This audit is one in a series of state water quality audits
          conducted by the Office of Inspector General (OIG) to
          develop a national picture of the performance of state water
          quality programs. OIG selected a variety of states where
          audits could identify best practices and needed
          improvements.

          Our overall objective was to determine whether Colorado’s
          water quality program effectively protects its surface water
          to sustain human health and aquatic life, and provides for
          both recreational and economic activities. Our specific
          objectives were to answer the following questions:

                 P       Has Colorado implemented procedures to
                         develop water quality standards that will
                         protect the State’s water quality?

                 P       Has Colorado implemented procedures to
                         test and assess the quality of all appropriate
                         waters in the State?



                     1              Report No. E1HWF8-07-0004-9100093
                                         Colorado Water Quality Standards,
                                         Monitoring, and Reporting Program

                    P       Are State reports on water quality complete,
                            accurate, and useful for program
                            management?

                    P       Has Region 8 implemented effective
                            procedures to approve Colorado water
                            quality standards and evaluate the State’s
                            water quality standards setting, testing,
                            assessing, and reporting?



BACKGROUND   The Clean Water Act is the primary legislation addressing
             water quality programs. The Clean Water Act’s objective is
             to restore and maintain the quality of the nation’s surface
             waters. The Clean Water Act requires states to adopt water
             quality standards. These standards are an important basis
             for state actions to control and remedy water pollution.
             Water quality standards have three parts: (1) water use
             classifications, (2) water quality criteria, and (3) an
             antidegradation policy.

             States classify waters according to how they can be used,
             such as for drinking water supply, fishing, and swimming.
             States can assign multiple use classifications to waters. The
             Clean Water Act goal is that all waters of the United States
             be fishable and swimmable, where attainable. The fishable
             use provides for the protection and propagation of fish,
             shellfish, and wildlife. The swimmable use provides for
             recreation in and on the water. States are required to adopt
             the fishable and swimmable use classifications for all waters,
             unless the water cannot meet these uses. If the waters
             cannot meet these uses, 40 Code of Federal Regulations
             (CFR) 131.10, Designation of uses, requires states to
             conduct special studies showing the uses are not attainable.

             Once states assign water use classifications, the Clean
             Water Act requires states to adopt water quality criteria to
             protect the uses. Water quality criteria identify the amount
             of a specific pollutant that may be present in the water and
             still protect the use. For example, the water quality criteria

                        2              Report No. E1HWF8-07-0004-9100093
                             Colorado Water Quality Standards,
                             Monitoring, and Reporting Program

for a fishable use could identify how much mercury can be
present in the water and still protect the fish and other
aquatic life. For protection of aquatic life, EPA
recommends two types of criteria - acute and chronic.
Acute criteria are designed to protect aquatic life from
short-term exposures to pollutants, while chronic criteria
are designed to protect aquatic life from exposure to
pollutants over long periods of time.

EPA develops and publishes criteria that set limits for
pollutants based on the effect the pollutants have on the
water use classifications. The Clean Water Act requires
EPA to develop criteria for 126 priority toxic pollutants;
i.e., the most persistent, prevalent, and toxic of pollutants.
To date, EPA has only developed criteria for 99 of the
priority toxic pollutants. States may use EPA criteria or
develop their own scientifically defensible criteria.

40 CFR 131.12, Antidegradation policy, requires states to
have an antidegradation policy to conserve, maintain, and
protect existing uses of waterbodies and maintain water
quality. The antidegradation policy also should protect
waters of exceptionally high quality or value.

States are required to review their water quality standards
once every 3 years and obtain EPA approval for the
standards. If EPA disapproves a state’s water quality
standards, it is required to promulgate new standards for the
state. The state’s water quality standards remain in effect
unless EPA promulgates new standards for the state.

40 CFR 130.4, Water quality monitoring, requires states to
develop a monitoring program to assess whether state
waters meet water quality standards. State water quality
monitoring programs generate important information
necessary to guide management decisions and track
environmental progress. Monitoring programs identify
waters to be tested, frequency of testing, and types of
testing. State monitoring programs must meet EPA’s
general quality assurance requirements.


           3               Report No. E1HWF8-07-0004-9100093
                            Colorado Water Quality Standards,
                            Monitoring, and Reporting Program

The Clean Water Act requires each state to submit to EPA a
biennial water quality assessment report summarizing its
water quality assessments. EPA summarizes the state
reports in a national report to Congress. EPA uses the state
water quality assessments to measure performance in
achieving its goal of clean and safe water.

If a waterbody does not meet its water quality standards,
the state classifies the waterbody as impaired and
determines the cause of impairment. Water pollution comes
from either point or nonpoint sources. Point source
discharges are controlled through the use of permits.
Examples of point source dischargers are municipal sewage
treatment plants and industrial facilities. These types of
facilities discharge through identifiable conveyances, such as
pipes or sewers into surface waters. Nonpoint sources of
pollution are less readily identifiable, such as from
agricultural runoff.

Once the state identifies impaired waterbodies, the state is
required to develop total maximum daily loads if existing
controls are not sufficient to correct the impairment. Total
maximum daily loads specify the amount of pollution
allowed to enter a waterbody from both point and nonpoint
sources. The Clean Water Act requires states to submit to
EPA a biennial list of its impaired waterbodies still requiring
total maximum daily loads. EPA reviews and approves the
impaired waterbody list.

The Colorado Water Quality Control Commission and the
Colorado Department of Public Health and Environment are
responsible for protecting and maintaining Colorado’s water
quality. The Water Quality Control Commission sets
pollution control policy in Colorado. The Water Quality
Control Division within the Department of Public Health
and Environment advises the Commission on water quality
standards, monitors water quality, and reports on the status
of water quality. In fiscal 1998, EPA provided
approximately $700,000 to the Department of Public Health
and Environment for its surface water program.


           4              Report No. E1HWF8-07-0004-9100093
                                         Colorado Water Quality Standards,
                                         Monitoring, and Reporting Program

SCOPE AND     We performed our audit in accordance with the Government
METHODOLOGY   Auditing Standards (1994 revision) issued by the
              Comptroller General of the United States as they apply to
              program audits. Our review included tests of the program
              records and other auditing procedures we considered
              necessary. We conducted our fieldwork from March
              through August 1998. We performed our fieldwork at
              Region 8 and the Colorado Department of Public Health
              and Environment, both in Denver, Colorado.

              See Exhibit 1 for methodology details.



PRIOR AUDIT   Although neither the OIG nor the U.S. General Accounting
COVERAGE      Office has issued any recent reports directly related to
              Colorado's water quality standards, monitoring, and
              reporting program, the OIG completed a similar audit in the
              State of Missouri, Missouri’s Water Quality Standards and
              Monitoring, dated March 31, 1998. In this report, the OIG
              recommended to the EPA Regional Administrator that
              Missouri should adopt the swimmable use classification for
              all waters or conduct the required studies showing the use
              could not be achieved. The OIG also recommended
              Missouri adopt EPA or other scientifically defensible
              criteria, develop a monitoring strategy to ensure
              comprehensive monitoring of all State waters, and
              implement procedures and controls to ensure its water
              quality reports are complete and accurate.




                        5              Report No. E1HWF8-07-0004-9100093
                                             Colorado Water Quality Standards,
                                             Monitoring, and Reporting Program

                    CHAPTER 2

ALTHOUGH COLORADO’S STANDARDS PROGRAM IS STRONG,
     ADDITIONAL STANDARDS AND MORE SUPPORT
            FOR DECISIONS ARE NEEDED

                 Colorado implemented procedures to develop water quality
                 standards that were comprehensive and protected State
                 water quality. However, in implementing any program as
                 complex as the Clean Water Act, improvements can be
                 made in adopting standards and supporting decisions for
                 those standards. Colorado water quality regulations define
                 the conditions for adopting standards, but do not define the
                 specific documentation required to support those decisions.
                 Colorado needs to ensure that its decisions are supported
                 with sufficient scientific analysis. In the absence of this
                 analysis, policy-making bodies in Colorado make decisions
                 based on incomplete information. Without adequately
                 justifying decisions to adopt water quality standards, the
                 public and aquatic life could be exposed to unsafe levels of
                 pollution and the public could face increased health risks.

                 Colorado developed water quality criteria for pollutants in
                 the absence of EPA criteria to make certain its citizens were
                 protected against dangerous pollutants found in State
                 waters. However, Colorado standards could be improved
                 by addressing the following issues:

                        P       Colorado did not adopt the national
                                swimmable use classification for all of its
                                waters, nor provide support that the use
                                could not be met.

                        P       Colorado could increase protection of
                                waterbodies used for drinking water supply
                                by adopting all Clean Water Act human
                                health criteria.

                        P       Colorado adopted criteria for several
                                pollutants based on the amount of pollution

                            6              Report No. E1HWF8-07-0004-9100093
                                               Colorado Water Quality Standards,
                                               Monitoring, and Reporting Program

                                  in the water without supporting that the
                                  waters’ use was still protected.



COLORADO           Colorado has a well-developed water quality standards
DEVELOPED AND      program. Colorado adopted water quality criteria for more
ADOPTED CRITERIA   than 140 pollutants and has been proactive in developing
WHERE EPA          water quality criteria for toxic pollutants where EPA had
HAD NOT            not. For example, Colorado developed scientifically
                   defensible criteria for silver and the organic pollutant
                   diisopropylmethylphosphonate (DIMP). Colorado felt that
                   these pollutants could threaten both human health and
                   aquatic life, and therefore developed criteria to protect its
                   waters from these pollutants.

                   The Clean Water Act charged EPA with developing water
                   quality criteria for priority pollutants to protect human
                   health and aquatic life. Federal regulations place the
                   responsibility on states to adopt water quality criteria to
                   protect water use classifications where EPA has not
                   developed criteria.

                   Colorado developed chronic aquatic life criteria for silver
                   because silver is dangerous to aquatic life. Although EPA
                   recommends both acute and chronic criteria for aquatic life,
                   it only developed acute aquatic life criteria for silver.
                   Colorado officials believed chronic criteria was needed to
                   protect aquatic life and developed its own scientifically
                   defensible chronic criteria. Colorado resisted attempts by a
                   strong industry lobby group to overturn the decision to
                   adopt the chronic silver criteria.

                   Colorado also developed water quality criteria for DIMP to
                   protect waters used for drinking water supply. Colorado
                   found DIMP leaching into drinking water supply waters
                   near the Colorado Rocky Mountain Arsenal. Colorado
                   officials believed that this pollutant was harmful to human
                   health. In the absence of EPA-published criteria to limit
                   DIMP, Colorado developed and adopted its own
                   scientifically defensible criteria for this organic pollutant.

                              7              Report No. E1HWF8-07-0004-9100093
                                                  Colorado Water Quality Standards,
                                                  Monitoring, and Reporting Program

                     As a result, Colorado now protects its drinking water
                     supplies from the potential effects of DIMP.



COLORADO DID NOT     Colorado did not adopt the national swimmable use
ADOPT THE NATIONAL   classification for all State waters. The Clean Water Act
SWIMMABLE USE        requires states to adopt the swimmable use classification for
CLASSIFICATION FOR   every waterbody, where attainable. Colorado did not follow
ALL STATE WATERS     its own policy in adopting the swimmable use classification,
                     nor did the State provide acceptable special studies
                     supporting that the use was not attainable. Without the
                     swimmable use classification, Colorado allows bacteria to
                     be present in waters used for recreational activities at higher
                     levels than it and EPA consider safe for human contact.

                     Colorado did not follow its own policy in adopting the
                     swimmable use classification. Colorado’s policy is to adopt
                     the swimmable use classification for waters used for
                     recreational activities that involve the possibility of ingesting
                     small quantities of water; for example, kayaking and rafting.
                     We identified several waters where Colorado had evidence
                     of other recreational activities such as non-motorized travel
                     and occasional wading but did not adopt the swimmable use
                     classification. We believe kayaking and rafting are forms of
                     non-motorized travel, and small children could ingest small
                     quantities of water when wading. Colorado did not adopt
                     the swimmable use classification for 257 of its 603
                     waterbodies (43 percent). We reviewed 45 of these 257
                     waterbodies and found that 16 were used for these other
                     types of recreational activities. While current monitoring of
                     the 16 waterbodies did not show evidence of unsafe levels
                     of bacteria, proper use classifications ensure safe bacteria
                     limits are in place to protect human health.

                     Colorado did not provide acceptable special studies
                     supporting that the swimmable use was not attainable.
                     Federal regulations acknowledge that the swimmable use
                     may not always be attainable and provide an exception
                     where states conduct special studies supporting their
                     decision. However, federal regulations are silent as to the

                                8               Report No. E1HWF8-07-0004-9100093
                                                    Colorado Water Quality Standards,
                                                    Monitoring, and Reporting Program

                       minimum requirements of the special studies. Colorado
                       officials disagreed with Region 8 over the contents of the
                       special studies. Colorado officials believed a simple
                       description of the water segment met the requirements of
                       the study and claimed they met the requirements. Region 8
                       officials, however, believed that the special studies should
                       include more rigorous analysis of the water condition.
                       Region 8 repeatedly requested the State to conduct the
                       studies and provided examples.



COLORADO SHOULD        Ambiguous EPA national guidance resulted in inconsistent
ADOPT CLEAN WATER      adoption of criteria for Colorado waterbodies classified to
ACT CRITERIA FOR ALL   provide drinking water. Colorado adopted drinking water
WATERS CLASSIFIED      supply criteria for all pollutants specified in the Safe
TO PROVIDE DRINKING    Drinking Water Act. However, EPA developed criteria for
WATER                  other pollutants for the protection of human health under
                       the Clean Water Act, but did not require states to adopt
                       these criteria for waterbodies used for drinking water. As a
                       result of Colorado following national guidance, 42
                       waterbodies in Colorado classified for drinking water supply
                       had fewer criteria for pollutants than other State
                       waterbodies classified to provide drinking water to the
                       Colorado public.

                       The Clean Water Act requires states to adopt water quality
                       criteria for priority pollutants if the presence of the pollutant
                       could interfere with the uses of the waterbody. The Safe
                       Drinking Water Act established maximum pollutant levels,
                       or criteria, that control toxic chemicals coming out of the
                       tap. According to EPA’s Water Quality Standards
                       Handbook, when setting water quality criteria for public
                       water supplies, states have the option of applying the Safe
                       Drinking Water Act criteria, the Clean Water Act criteria,
                       or more stringent controls to protect against the effects of
                       contaminants by ingestion from drinking water.
                       Unfortunately, EPA did not develop criteria for all of the
                       same pollutants under the Clean Water Act and Safe
                       Drinking Water Act. Therefore, although Colorado
                       adopted criteria for drinking water supplies for all pollutants

                                  9               Report No. E1HWF8-07-0004-9100093
                                                  Colorado Water Quality Standards,
                                                  Monitoring, and Reporting Program

                      with Safe Drinking Water Act criteria, it did not adopt
                      EPA-recommended criteria for other pollutants identified by
                      the Clean Water Act.



COLORADO COULD        Colorado adopted water quality criteria for some pollutants
BETTER SUPPORT        in certain waters that were less restrictive than the criteria
CRITERIA LIMITS FOR   applied to most other waters in the State. For these
POLLUTANTS            pollutants, Colorado did not provide support showing the
                      criteria were still protective of the uses for the waters.
                      Colorado names this form of criteria ambient-based criteria,
                      which refers to the amount of the pollutant already present
                      in the water. Ambient-based criteria are less restrictive than
                      EPA-recommended criteria; therefore, Colorado allows
                      more pollutants in waters where ambient-based criteria are
                      adopted. Colorado could not support its claim that allowing
                      more pollution in some of its waters was still protective of
                      the waters’ use.

                      Colorado has not always provided adequate support for its
                      ambient-based criteria. We reviewed 14 of the 109 waters
                      with ambient-based criteria and found Colorado did not
                      have adequate support that the less restrictive criteria still
                      protected the waters’ use. In the waters reviewed,
                      Colorado generally relied on monitoring results as sufficient
                      support for adoption of ambient-based criteria.

                      Colorado regulations allow for adopting ambient-based
                      criteria where natural or irreversible man-induced water
                      quality levels are higher than Colorado’s generally accepted
                      criteria. The adoption of ambient-based criteria is an
                      alternative to downgrading or removing a use associated
                      with a particular waterbody. Because of its geography,
                      Colorado has naturally high concentrations of metals in
                      many parts of the State. Colorado officials also believe that
                      man-induced practices, such as past mining activities, have
                      irreversibly disturbed some waters. Region 8 concurs that

                      ambient-based criteria may be appropriate in these types of
                      waters but should be properly supported.

                                10              Report No. E1HWF8-07-0004-9100093
                                         Colorado Water Quality Standards,
                                         Monitoring, and Reporting Program

             Region 8 questioned Colorado’s lack of support for specific
             ambient-based criteria for several years. Regional staff
             commented on draft and proposed ambient-based criteria,
             and urged Colorado to document a technically-defensible
             rationale for ambient-based criteria. In August 1998,
             Region 8 disapproved Colorado’s ambient-based criteria for
             certain portions of the Animas River because Colorado did
             not provide support that the criteria was protective of the
             waters’ existing use.

             Although all of Colorado’s water quality standards
             decisions are made in a public forum, the written
             justification needed to adopt standards is only that necessary
             to convince a majority of the Water Quality Control
             Commissioners. When making recommendations to the
             Commission, the Water Quality Control Division does not
             always provide adequate supporting documentation for
             those recommendations. In order to ensure that State water
             is protective of the waters’ uses, the Water Quality Control
             Division should provide sufficient support showing that its
             recommendations will continue to maintain and protect
             Colorado’s water quality.



CONCLUSION   Colorado has a well-developed water quality standards
             program. Colorado has adopted water quality criteria for
             more than 140 pollutants, and has developed criteria on its
             own when it felt that a pollutant could interfere with the
             uses of its water and pose a threat to both human and
             aquatic life. Like any complex environmental program,
             however, improvements are possible. Ensuring waters
             remain safe for swimming is important because people will
             use whatever waters are available for recreation. Maximum
             protection for waters used as drinking water sources is a
             must to help ensure the water we use in our homes is free
             from dangerous pollutants. When Colorado adopts
             ambient-based criteria without adequate support, it may
             send a message to the regulated community that this type of
             criteria may be acceptable for any waters where elevated
             concentrations of pollutants can’t be easily explained.

                       11              Report No. E1HWF8-07-0004-9100093
                                               Colorado Water Quality Standards,
                                               Monitoring, and Reporting Program




RECOMMENDATIONS    We recommend the Regional Administrator:

                          2-1.    Work with Colorado to adopt the national
                                  swimmable use classification and
                                  corresponding criteria limits where
                                  attainable, or conduct the required special
                                  studies with consideration of basinwide
                                  special studies. Disapprove Colorado water
                                  quality standard submissions which do not
                                  comply with these options.

                          2-2.    Work with Office of Water to remove the
                                  ambiguity in national guidance for adopting
                                  drinking water supply criteria, and
                                  recommend Colorado adopt the Clean Water
                                  Act human health based criteria for all State
                                  waters classified for drinking water supplies.

                          2-3.    Continue to encourage Colorado to develop
                                  written justification supporting the
                                  appropriateness of adopting ambient-based
                                  criteria and disapprove water quality
                                  standards submissions that include
                                  inadequate analysis.



AGENCY AND STATE   Colorado provided comments to clarify portions of the
COMMENTS AND OIG   report, and we have incorporated these comments and
EVALUATION         modified the report as appropriate.

                   Region 8 agreed with recommendation 2-1 and stated
                   additional work is needed at the Regional and State level to
                   bring Colorado into compliance with federal requirements
                   for the protection of the swimmable use. Colorado did not
                   agree to adopt the national swimmable use classification and
                   corresponding criteria limits for all waters, where attainable.
                   Colorado did not provide the required special studies
                   supporting that the swimmable use was not attainable.

                             12              Report No. E1HWF8-07-0004-9100093
                            Colorado Water Quality Standards,
                            Monitoring, and Reporting Program

However, Colorado stated more documentation was
desirable to support decisions regarding adoption of
recreational use classifications. Thus, Region 8 will need to
disapprove these standards.

Region 8 agreed with recommendation 2-2, that there is
ambiguity in national guidance for adopting drinking water
supply criteria and will continue to discuss this issue with
Office of Water. However, Region 8 believes Colorado
adopted sufficient criteria to protect its drinking water
supplies, though not the most protective of the several
acceptable approaches established by EPA, and did not
agree to recommend a change. Colorado adopted all Safe
Drinking Water Act criteria; however, it did not agree to
also adopt Clean Water Act criteria designed to protect
human health for all state waters classified for drinking
water supply.

Region 8 agreed with recommendation 2-3 that additional
work was needed at the Regional and State level to improve
the process by which ambient-based standards are
developed and adopted. Colorado agreed more
documentation was desirable to support decisions, including
preparing analyses at triennial reviews for maintaining
ambient standards in light of changed conditions since the
initial standards adoption.




          13              Report No. E1HWF8-07-0004-9100093
                                                Colorado Water Quality Standards,
                                                Monitoring, and Reporting Program

                       CHAPTER 3

      PROGRESS IN COLORADO’S MONITORING PROGRAM
                    IS STILL POSSIBLE

                    Colorado’s current monitoring program employed
                    appropriate monitoring methods and procedures to test and
                    assess the waters of the State. Colorado, like other states,
                    has faced difficult challenges in maintaining a
                    comprehensive water quality monitoring program. In 1997,
                    Colorado reorganized to create a new monitoring unit, and
                    thus demonstrated the State’s increased commitment to
                    water quality monitoring. However, Colorado could utilize
                    more advanced monitoring techniques and needs to develop
                    a formal process to obtain organic monitoring data.
                    Without organic monitoring data, Colorado may not be able
                    to identify all impaired waters.



STATES MUST         40 CFR 130.4, Water quality monitoring, requires states to
ESTABLISH           establish appropriate testing techniques to monitor water
APPROPRIATE         quality. This monitoring information is to be used to
TESTING             support activities to abate and control pollution, develop
                    water quality standards, and report water quality
                    information to the public. The regulations further require
                    that water monitoring programs include the collection and
                    analysis of physical, chemical, and biological data, and
                    quality assurance and control programs to assure
                    scientifically valid data.



COLORADO’S          Colorado, like other states, has faced difficult challenges in
MONITORING          maintaining a comprehensive water quality monitoring
PROGRAM IS          program. In 1995, Colorado exhausted all means of
EVOLVING            supporting instream water quality monitoring. However, in
                    1995, Colorado directed additional resources toward
                    watershed scale monitoring. In 1997, Colorado reorganized
                    to create a monitoring unit and significantly reallocated staff

                              14              Report No. E1HWF8-07-0004-9100093
                                                Colorado Water Quality Standards,
                                                Monitoring, and Reporting Program

                    resources targeted to monitoring. As a result, Colorado’s
                    current monitoring program more comprehensively
                    identifies waters to be tested and ensures frequent testing of
                    the waters.



COLORADO COULD      The overall usefulness of Colorado’s monitoring in its
UTILIZE MORE        various watersheds would improve with a more well-
ADVANCED            rounded monitoring design, including biological indicators.
MONITORING          Colorado’s monitoring program primarily conducted
TECHNIQUES          chemical-specific water quality testing in the last 2 years.
                    Chemical-specific testing alone does not provide the
                    necessary information to determine the biological condition
                    of the water. Skewed emphasis on chemical testing could
                    result in the State not identifying impaired waters.
                    Colorado’s monitoring has included more advanced
                    monitoring techniques such as ambient toxicity testing, fish
                    population estimates, macro invertebrate surveys, and
                    habitat assessments. However, the extent of these more
                    advanced monitoring techniques was limited. Additional
                    monitoring data would provide Colorado with a better basis
                    for determining the effectiveness of its water management
                    program and the answer to the question: What is the
                    condition of state waters?



FORMAL PROCESS TO   Colorado had no systematic process to obtain organic
OBTAIN ORGANIC      pollutant monitoring data for use in water quality
MONITORING DATA     assessments and reporting. Organic pollutants, such as
WOULD IMPROVE       pesticides and herbicides, can pose a threat to human health
WATER QUALITY       and aquatic life. Colorado Water Quality Control Division’s
ASSESSMENTS         monitoring program did not include testing State waters for
                    organic pollutants. Although other Colorado divisions and
                    federal agencies tested the waters for organic pollutants, the
                    Water Quality Control Division did not have a structured
                    process for obtaining and using this testing data. Without
                    these testing results, Colorado cannot identify waters
                    impaired by organic pollutants.


                              15              Report No. E1HWF8-07-0004-9100093
                                               Colorado Water Quality Standards,
                                               Monitoring, and Reporting Program
CONCLUSION         Although Colorado’s monitoring program met statutory
                   requirements, the State is interested in increasing the extent
                   of more advanced monitoring techniques. Colorado
                   officials stated funding constraints limited their ability to
                   expand their monitoring program. Also, Colorado could
                   provide for a more comprehensive evaluation of water
                   impairments by obtaining organic pollutant monitoring data
                   or monitoring the waters themselves.



RECOMMENDATIONS    We recommend the Regional Administrator:

                          3-1.    Provide technical assistance to help
                                  Colorado formulate a long range plan to
                                  expand its monitoring program to include
                                  advanced testing techniques.

                          3-2.    Request that Colorado develop and
                                  implement a process to obtain and use other
                                  sources of organic pollutant monitoring or
                                  monitor for organic pollutants themselves.



AGENCY AND STATE   Region 8 agreed with both recommendations. Colorado
COMMENTS AND OIG   welcomed both technical assistance from Region 8 toward
EVALUATION         improving its monitoring program, and ideas on better
                   means to incorporate organic chemical monitoring data into
                   water quality assessments.




                             16              Report No. E1HWF8-07-0004-9100093
                                                 Colorado Water Quality Standards,
                                                 Monitoring, and Reporting Program

                        CHAPTER 4

         COLORADO’S EMPHASIS ON WATER QUALITY
              REPORTS WAS INCONSISTENT

                     Colorado water quality reports varied in completeness and
                     accuracy. EPA and public pressures brought on in part by
                     recent total maximum daily load lawsuits prompted
                     Colorado to accurately prepare the impaired and threatened
                     waterbodies list. However, Colorado had not felt similar
                     pressure from EPA and the public to focus on the quantity
                     and quality of data included in the water quality assessment
                     report, the primary mechanism to report to the public on the
                     quality of its waters. Also, Colorado did not use a database
                     to store water quality assessments to increase the efficiency
                     of its water quality reporting. Colorado’s lack of emphasis
                     on the preparation of the water quality assessment report
                     may result in Congress and the public using inaccurate or
                     incomplete data for decision making.



STATES MUST REPORT   Clean Water Act section 303(d) requires states to list
ON QUALITY OF        impaired waterbodies. The impaired waterbody list is used
THEIR WATERS         to schedule waterbodies for the development of total
                     maximum daily loads. 40 CFR 130.7, Total maximum daily
                     loads (TMDL) and individual water quality-based effluent
                     limitations, requires states to identify all impaired
                     waterbodies where existing pollution control requirements
                     are not stringent enough to achieve the water quality
                     standards.

                     Clean Water Act section 305(b) requires states to submit a
                     report describing the quality of all waters within the state
                     every 2 years. 40 CFR 130.8, Water quality report,
                     provides that the water quality assessment reports serve as
                     the primary assessment of state water quality and provide
                     the basis for water quality management planning. EPA,
                     states, and tribes together developed guidance for the
                     preparation of this report. The goal of the guidance is to


                               17              Report No. E1HWF8-07-0004-9100093
                                                 Colorado Water Quality Standards,
                                                 Monitoring, and Reporting Program
                     improve the accuracy, consistency, and usefulness of water
                     quality data reported by the states, and then summarized in
                     the national report on water quality for Congress and the
                     public.



COLORADO’S           Colorado appeared to develop a complete and accurate
IMPAIRED             impaired and threatened waterbody list. Colorado placed a
WATERBODY LIST       high priority on the preparation of this list and implemented
APPEARED TO BE       effective procedures to develop the list. Colorado’s
COMPLETE AND         emphasis on preparation of the list stemmed in part from
ACCURATE             recent lawsuits that focused increased public attention on
                     the accuracy of the lists. Further, Colorado used the list as
                     a tool to develop monitoring plans, direct program efforts,
                     and prioritize the development of total maximum daily
                     loads.



COLORADO’S WATER     Although Colorado recognized the importance of the water
QUALITY ASSESSMENT   quality assessment report as a public information vehicle,
REPORT WAS NOT       the report was not complete or accurate, and therefore not
COMPLETE OR          comparable to other states. Colorado’s 1996 water quality
ACCURATE             assessment report did not include tables of the status of
                     water quality by use classification. Further, Colorado
                     inappropriately made presumed assessments of water quality
                     for organic pollutants. As a result, Colorado’s 1996
                     assessment report cannot be accurately compiled with other
                     state reports to present a national picture of water quality.

                     Colorado did not follow specific recommendations in the
                     national guidance document. Colorado did not prepare
                     tables of all use classifications in the report as
                     recommended. These tables would have shown the number
                     of river miles and lake acres for each use classification in
                     Colorado, and which waters were fully, partially, or not
                     supporting their use. The tables also would have shown
                     which waters’ uses were threatened or not attainable.
                     Colorado’s water quality assessment report cannot be



                               18              Report No. E1HWF8-07-0004-9100093
                                             Colorado Water Quality Standards,
                                             Monitoring, and Reporting Program
                 compiled with other state data to present an analysis of the
                 status of water quality nationwide.

                 Colorado made presumed assessments by classifying
                 waterbodies as fully supporting in the absence of organic
                 pollutant monitoring data. The national guidance clearly
                 cautioned states against making presumed assessments and
                 categorizing waters as fully supporting in the absence of
                 monitoring data. Colorado classified all waters as fully
                 supporting without organic pollutant monitoring data.



ASSESSMENT       Colorado could improve its reporting process and more
DATABASE COULD   efficiently and effectively report water quality data to the
IMPROVE STATE    public by using a database to store water quality
PROCESSES        assessments. Colorado did not meet the 1998 water quality
                 assessment report submittal deadline required by the Clean
                 Water Act because Colorado did not have an efficient
                 process for preparing the report. Colorado could increase
                 the likelihood of timely submittal of required reports and
                 more efficiently compile water quality assessment data by
                 having a database of assessments. Colorado could assess
                 water quality as monitoring data became available and later
                 review the assessments without having to recompile the
                 data. Also, Colorado could reduce duplication of effort by
                 not reassessing water quality data when preparing each of
                 the required reports. A database could also facilitate the
                 tracking and analysis of trends in water quality and
                 biological monitoring, which could provide a basis for
                 evaluating the appropriateness of numeric water quality
                 criteria.



CONCLUSION       Although a high emphasis was placed on the preparation of
                 the impaired and threatened waterbody list, Colorado could
                 improve the usefulness of the water quality assessment
                 report by consistently following national guidance.
                 Consistent reporting of water quality among states enables
                 the aggregation of data for comparisons and analysis on a

                           19              Report No. E1HWF8-07-0004-9100093
                                              Colorado Water Quality Standards,
                                              Monitoring, and Reporting Program
                   national scale. Also, Colorado needs to implement a more
                   efficient automated process for maintaining water quality
                   assessment data which would assist in developing trend data
                   to comprehensively assess water quality changes. As a
                   result, Congress and the public would make decisions based
                   on more accurate and complete reporting data.



RECOMMENDATIONS    We recommend the Regional Administrator:

                          4-1.    Persuade Colorado to follow the national
                                  guidance in preparing the water quality
                                  assessment report and include complete,
                                  accurate information.

                          4-2.    Work with Colorado to develop a database
                                  to maintain water quality assessment data.



AGENCY AND STATE   Region 8 agreed with both recommendations. Colorado
COMMENTS AND OIG   shared concerns over inconsistent reporting of water quality
EVALUATION         among states and committed to make ongoing progress
                   towards a more complete, accurate, and comprehensive
                   water quality assessment report. Colorado also agreed a
                   database to maintain water quality assessments would make
                   them more accessible and easier to report.




                             20             Report No. E1HWF8-07-0004-9100093
                                                Colorado Water Quality Standards,
                                                Monitoring, and Reporting Program

                       CHAPTER 5

             REGION 8 OVERSIGHT MIRRORED
              OFFICE OF WATER DIRECTION

                    Region 8 implemented effective procedures to approve and
                    evaluate Colorado’s water quality standards setting, except
                    it did not consistently disapprove standards when State
                    decisions were not sufficiently supported. Region 8 did not
                    have procedures to oversee and evaluate Colorado’s water
                    quality testing and assessing, and water quality assessment
                    reporting. Region 8 oversight efforts focused on the
                    development of standards while placing little emphasis on
                    Colorado’s monitoring activities. Region 8 actions mirrored
                    the Office of Water priorities in the Region’s current water
                    management agreement. Colorado, in turn, placed more
                    attention on the development of its standards program than
                    on monitoring, assessing, and reporting activities.



WATER MANAGEMENT    The fiscal 1998-1999 water management agreement
AGREEMENT LISTS     between Office of Water and Region 8 listed the priority
PRIORITIES AND      activities for the Region, and contained the measures the
MEASURES            Region uses to report on water program accomplishments
                    to the Office of Water. Water quality standards
                    development was listed as one of the top regional priorities.
                    The agreement detailed regional actions planned for
                    assisting states in developing and adopting water quality
                    standards and included a measure for improving state water
                    quality standards. The agreement also stated the Region
                    would continue working with states to develop effective
                    monitoring programs, and that emphasis on reporting
                    responsibilities would be a regional priority. However, no
                    regional actions were detailed, and the agreement did not
                    include measures to support actions to improve state
                    monitoring and reporting programs.




                              21              Report No. E1HWF8-07-0004-9100093
                                                  Colorado Water Quality Standards,
                                                  Monitoring, and Reporting Program
REGION 8 ACTIVELY      Region 8 had effective procedures to approve and evaluate
PARTICIPATED IN        Colorado’s water quality standards and placed a high
COLORADO’S             priority on the oversight of State water quality standards
STANDARDS              development. Region 8 participated in Colorado’s public
PROGRAM                review process by testifying at Water Quality Control
                       Commission hearings, developed multiple guidance
                       documents, and interpreted complex EPA Office of Water
                       policy and put it in tangible terms for the State. Regional
                       approval of Colorado’s water quality standards was often
                       delayed, however, due to consultations with U.S. Fish and
                       Wildlife Service on the Endangered Species Act. In
                       addition, Region 8 did not consistently disapprove
                       Colorado’s water quality standards where Colorado did not
                       adequately support ambient-based criteria or did not
                       provide special studies to support that the swimmable use
                       was not attainable. Overall, Region 8 was very involved in
                       Colorado’s standards development process and
                       development of water quality standards to protect the
                       State’s waters.



REGION 8 HAD LIMITED   Region 8 did not have procedures to oversee and evaluate
INVOLVEMENT IN         Colorado’s water quality testing and assessing, and water
COLORADO’S             quality assessment reporting. Region 8 had not recently
MONITORING             conducted a program review of Colorado’s monitoring
PROGRAM                activities nor evaluated Colorado’s monitoring plans. The
                       negotiated water management agreement between Office of
                       Water and Region 8 did not contain measures for
                       monitoring program activities. Consequently, Region 8 did
                       not consider oversight of Colorado’s monitoring activities a
                       regional program priority.



CONCLUSION             Although Region 8 was actively involved in the
                       development of standards to protect the integrity of
                       Colorado waters, Region 8 was not involved in Colorado’s
                       testing of its waters. As a result, Region 8 needs to develop
                       effective procedures to oversee and evaluate Colorado’s



                                 22             Report No. E1HWF8-07-0004-9100093
                                              Colorado Water Quality Standards,
                                              Monitoring, and Reporting Program
                   water quality testing and assessing, and water quality
                   assessment reporting.



RECOMMENDATIONS    We recommend the Regional Administrator:

                          5-1.    Clarify Region 8's role and commitment for
                                  providing technical and program support to
                                  Colorado’s monitoring and assessment
                                  programs.

                          5-2.    Identify weaknesses and areas of
                                  improvements for Colorado’s monitoring
                                  and assessment programs and assist in the
                                  implementation of corrective actions.



AGENCY AND STATE   Region 8 and Colorado agreed with both recommendations.
COMMENTS AND OIG   Colorado welcomed both contributions from Region 8
EVALUATION         technical staff and the opportunity to work with them in
                   ongoing efforts to enhance the monitoring and assessment
                   programs.




                             23              Report No. E1HWF8-07-0004-9100093
                                                                 Colorado Water Quality Standards,
                                                                 Monitoring, and Reporting Program

                                                                                 EXHIBIT 1
                            SCOPE AND METHODOLOGY


We reviewed Colorado’s internal controls over water quality standards setting, monitoring, and
reporting. We analyzed internal controls to assure compliance with federal statutory and
regulatory criteria and with Colorado policies and procedures. We determined whether Region
8's Federal Managers’ Financial Integrity Act reports disclosed any material weaknesses related to
the audit. We reviewed the management agreement measures in Region 8's agreement with Office
of Water and the core performance measures in Region 8's agreement with Colorado, to identify
whether they contained the Office of Water Government Performance Results Act goals for water
quality. Our audit disclosed areas needing improvement and areas of commendation for both
Colorado and Region 8, which are discussed in Chapters 2 through 5.

To determine Colorado’s processes for establishing water quality standards, we interviewed
Colorado’s Water Quality Control Division staff and flowcharted their processes for developing
and adopting water quality standards. We reviewed Colorado’s water quality standards as
adopted in its Regulation No. 31. The Basic Standards and Methodologies For Surface Water,
and reviewed policy and guidance papers to determine if established water quality standards were
in compliance with the Clean Water Act and applicable federal regulations.

To review Colorado’s monitoring program, we interviewed staff of the Water Quality Control
Division and flowcharted their process for monitoring and assessing water quality data. We
reviewed Colorado’s monitoring plans to identify the location and extent of water quality
monitoring. We also flowcharted Colorado’s processes for preparing and reporting on the water
quality assessment report and the impaired waterbody list. We reviewed Colorado reports and
assessed whether Colorado reports for reporting water quality were consistent with federal
regulations and EPA guidance.

We judgmentally selected 57 waterbodies to test and evaluate the processes for setting use
classifications, establishing water criteria, monitoring and assessing waterbodies, recording
monitoring data in EPA’s computerized data system, and reporting on water quality. We chose
the 57 waterbodies for the following reasons: (1) waterbodies with water quality criteria for
bacteria adopted at levels higher than recommended to support the national swimmable use
classification, (2) waterbodies with ambient-based criteria, (3) waterbodies where temporary
deviations were issued and/or expired, (4) waterbodies chosen to verify accuracy and
completeness of the 1996 water quality assessment report and the 1998 impaired waterbodies list,
(5) waterbodies chosen to verify accuracy and State implementation of either the 1996 or 1997
Colorado monitoring plan, or (6) waterbodies without an aquatic life use classification.

We reviewed National Pollutant Discharge Elimination System permits for major facilities in

                                               24              Report No. E1HWF8-07-0004-9100093
                                                                Colorado Water Quality Standards,
                                                                Monitoring, and Reporting Program
Colorado. We reviewed the permits to determine if they included permitted discharges of
pollutants for which Colorado did not have water quality standards.

To determine if Region 8 implemented effective procedures to approve water quality standards
and evaluate Colorado’s water quality standards setting, testing, assessing, and reporting, we
interviewed Region officials to determine how they ensured compliance with the Clean Water Act
and applicable federal regulations and guidance. We identified their processes for reviewing
Colorado’s water quality standards, water quality inventory report, and the impaired waterbodies
list. We reviewed correspondence between Region 8 and Colorado.




                                               25             Report No. E1HWF8-07-0004-9100093
                  Colorado Water Quality Standards,
                  Monitoring, and Reporting Program

                            APPENDIX I
AGENCY RESPONSE




      26      Report No. E1HWF8-07-0004-9100093
                                                                   Colorado Water Quality Standards,
                                                                   Monitoring, and Reporting Program
                                        ATTACHMENT


Editorial Suggestions (suggested additions in bold)

16.    Page 2; second complete paragraph: “... Acute criteria is are designed ..... while chronic
       criteria is are designed ....”. Also suggest adding a sentence e.g “ To supplement
       numeric criteria, States also adopt narrative criteria (often in the form of ‘free from’
       statements) that describe the desired water quality goals (and ideally
       implementation procedures for these narrative provisions).”

P      Page 2; fourth complete paragraph: “States are required to hold public hearings for the
       purpose of reviewing their water quality standards at least once every 3 years ... “.

P      Page 5; last paragraph: “The Clean Water Act charged EPA with developing water quality
       criteria guidance for priority pollutants ........ place the responsibility on states to adopt
       water quality criteria (numeric and narrative) to protect water use classifications. where
       EPA has not developed criteria.

P      Page 11; recommendation 3-1: “... its monitoring program to included advanced testing
       ....”

P      Page 13; first paragraph, second sentence: “ ... prompted Colorado to accurately prepare
       the impaired and threatened waterbodies list ...”

P      Page 13; first paragraph under BACKGROUND, last sentence: “... control requirements
       are not stringent enough to achieve attain or maintain the water quality ...”.

P      Page 13; last paragraph: “Colorado appeared to develop a complete and accurate impaired
       and threatened waterbody list...”.

P      Page 15; first paragraph: “Although a high emphasis was placed on the preparation of the
       impaired and threatened waterbody list ...”.

Regional Responses to Recommendations


Recommendation 2-1.

       Work with Colorado to adopt the national swimmable use classification and
       corresponding criteria limits where attainable, or conduct the required special studies
       with consideration of basinwide special studies. Disapprove Colorado water quality

                                                27               Report No. E1HWF8-07-0004-9100093
                                                                   Colorado Water Quality Standards,
                                                                   Monitoring, and Reporting Program
     standards submissions which do not comply with these options.
EPA Region 8 Response:

        The Region agrees that additional work is needed, at both the Regional and State level, to
bring Colorado into compliance with federal requirements addressing water quality standards for
the protection of recreation uses.

Background to Regional Response:

       To date, the Region has addressed this problem by: (1) working with the State before
and during each triennial review to assist the State to adopt standards that meet federal
requirements, and (2) exercising its authority to disapprove revisions that do not satisfy federal
requirements. These efforts are described in more detail below.

       Assistance with Triennial Reviews

        Colorado’s triennial review process for reviewing and revising segment-specific
designated uses and numeric standards begins with an informational hearing. The purpose of
these hearings is to take public comments on whether the water quality standards should be
continued in their current form or changed in some respect. The practice of EPA Region 8 is to
submit written comments at Colorado’s informational hearings, identifying issues of concern. Our
comments address whether there are segments with water quality standards that do not support
the uses specified in the Clean Water Act (CWA) § 101(a)(2) (the fishable/swimmable goal), and
provide notice of the federal requirement to complete, and make available for public comment,
use attainability analyses for those segments. The Region also notifies the State that any
proposals to remove a designated use specified in CWA § 101(a)(2) or adopt a modified use that
requires less stringent criteria also requires completion of a use attainability analysis.

        With respect to water quality standards for recreation, our comments identify the
availability of guidance documents issued by the Region in 1992 and 1994 as a supplement to the
EPA’s national guidance. The 1992 Regional guidance identifies available options and makes
recommendations to assist States and Tribes to comply with federal requirements. Our 1994
guidance provides a recommended worksheet for completing use attainability analyses for
recreation uses.

       Disapproval of Submitted Revisions

        The Region’s preference is to work with Colorado in a proactive manner, throughout each
triennial review, to assist the State to adopt water quality standards that meet federal
requirements. However, there have been two occasions when the Region disapproved water
quality standards adopted by Colorado that were not protective of recreation uses and were not
supported by a use attainability analysis. In a letter dated September 13, 1991, the Region

                                                 28              Report No. E1HWF8-07-0004-9100093
                                                                           Colorado Water Quality Standards,
                                                                           Monitoring, and Reporting Program
disapproved the water quality standards for more than two hundred segments in four of the
State’s seven basins because the standards were not protective recreation uses, and use
attainability analyses had not been completed. In a letter dated July 16, 1992, the Region
disapproved the water quality standards for more than eighty additional segments located in the
South Platte, Laramie, Republican, and Smoky Hill River Basins, again because the standards
were not protective of recreation uses and use attainability analyses had not been completed. In
the years following these two disapproval actions, the State has upgraded the recreation standards
for many of the disapproved segments and elsewhere. However, there is a need to complete use
attainability analyses for the segments that still do not include recreation uses and standards
consistent with the CWA § 101(a)(2) goal. It is our understanding that the Division has drafted a
recreation use attainability analysis worksheet that it plans to use to complete the required
analyses.


Recommendation 2-2.

        [Work with Office of Water to remove the ambiguity in national guidance for adopting drinking water
        supply criteria and] Recommend Colorado consistently adopt Clean Water Act criteria designed to protect
        human health for all State waters classified for drinking water supply.

EPA Region 8 Response:

          The Region does not agree with this recommendation as presented in the draft report.
First, the issue of ambiguity in national guidance is not an appropriate issue to be raised in a State-
specific report (and thus it is recommended the language be deleted). Further, EPA Region 8 has
recommended that States and Tribes adopt numeric standards for drinking water segments based
on either CWA human health criteria or Safe Drinking Water Act (SDWA) standards, whichever
are more stringent. The Region believes that Colorado’s numeric standards for drinking water
segments meet or exceed minimum federal requirements. The background explains Colorado’s
approach in more detail and presents the basis for concluding that it is consistent with federal
requirements.

Background to Regional Response

        Ambiguity in National Guidance

        The Region has (and continues to) discuss this issue with our Headquarters office. This is a
recognized National issue, and as such does not seem appropriate to raise in a State-specific review
effort. Part of the ambiguity is due to statutory construction and different mandates outlined in the
CWA as compared to the SDWA. This issue is being considered on a National level.




                                                       29                Report No. E1HWF8-07-0004-9100093
                                                                    Colorado Water Quality Standards,
                                                                    Monitoring, and Reporting Program
       Evaluation of Colorado’s Approach

          EPA Region 8 has recommended that States and Tribes adopt numeric standards for
drinking water segments based on either CWA human health criteria or SDWA standards,
whichever are more stringent. The Region would not recommend exclusive reliance on CWA
human health criteria because of the importance of ensuring that source waters for public water
supplies achieve a level of water quality that is equal to or better than SDWA Maximum
Contaminant Levels (MCLs). The Region believes that Colorado’s numeric standards for drinking
water segments meet or exceed minimum federal requirements. The recommendation addresses
the fact that, for particular segments and some pollutants, the State has not selected the most
protective of the several acceptable approaches that EPA has established for States and Tribes.
Colorado’s approach and the basis for concluding that it is consistent with federal requirements are
explained and discussed in more detail below.

         Concern has been raised regarding 42 waterbodies where both a drinking water and an
aquatic life class 2 designated use have been adopted. For these segments, the State has not
concluded, to date, that there is a need to assign numeric standards protective of fish consumption
uses, and so the State has assigned human health standards designed to protect only water
consumption uses. For other waterbodies in Colorado with both a drinking water and an aquatic
life designated use (i.e., where the State has concluded a need to protect fish consumption uses), the
State has assigned numeric standards protective of both water and fish consumption. Particularly
for pollutants that exhibit a strong tendency to accumulate in fish tissues, numeric standards that
assume human exposure only through water consumption will be less stringent than those that
assume both water and fish consumption.

         States have the option of assigning numeric standards protective of fish consumption uses
to all waters with aquatic life designated uses. Colorado has elected not to follow that more
stringent approach, but rather to assign such standards to aquatic life class 2 segments only where
there is need to provide the extra level of protection (based on the site-specific potential for fish
consumption uses). However, all aquatic life class 1 segments are assigned numeric standards
protective of fish consumption uses on a statewide basis. The Region believes this approach to
protecting fish consumption uses is reasonable and consistent with federal guidance, primarily
because of the large number of low-flow waterbodies in Colorado that do not support catchable-
size fish populations.

         When assigning numeric standards to protect water supply uses, States have the option of
using CWA § 304(a) criteria, drinking water values promulgated by the Agency under the SDWA
(i.e., Maximum Contaminant Level Goals (MCLGs) or MCLs), or other scientifically defensible
criteria. Colorado has elected to assign numeric standards to water supply segments that are derived
using the same basic methods that EPA uses to calculate drinking water MCLGs and MCLs. For
some pollutants, SDWA values are more stringent than the CWA § 304(a) criteria. For other
pollutants, CWA criteria are more stringent than the SDWA values. One of the reasons for the
differing levels of stringency is that CWA criteria include explicit consideration of exposure through
fish consumption. SDWA standards do not consider fish consumption, although they typically


                                                  30              Report No. E1HWF8-07-0004-9100093
                                                                            Colorado Water Quality Standards,
                                                                            Monitoring, and Reporting Program
assume that only a fraction (e.g., 20%) of total exposure is through water consumption. Under
EPA’s national water quality standards program guidance, the approach used by Colorado to assign
numeric standards protective of drinking water uses is acceptable. For some (but not all) pollutants,
Colorado’s approach results in numeric standards less stringent than those published by the Agency
pursuant to CWA § 304(a). EPA Region 8 has issued guidance to all of its States and Tribes
recommending, for segments with a drinking water designated use, adoption of either the CWA
criterion or the SDWA MCLs, whichever is more stringent (see Numeric Criteria to Protect Water
Supply Uses, EPA letter to Colleagues signed by Carol Campbell, Director, Ecosystems Protection
Program, January 24, 1996).

         The Region has worked with Colorado to further develop the State’s methodology for
identifying aquatic life class 2 segments with the potential to support fish consumption uses. It is
our understanding that the State staff intend to: (1) review all aquatic life class 2 segments that have
not been assigned fish consumption standards (i.e., not just those with a water supply designated
use), (2) propose appropriate revisions to the standards for those segments, and (3) request public
comments on its findings as part of each triennial review. The Region understands that State staff
will confer with Colorado Division of Wildlife field biologists to identify segments where fishing
occurs and segments where fish are stocked by the Division of Wildlife.


Recommendation 2-3.

        Continue to encourage Colorado to develop written justification supporting the appropriateness of adopting
        ambient-based criteria and disapprove water quality standards submissions that include inadequate analysis.

EPA Region 8 Response:

       The Region agrees with the recommendation, additional work is needed, at both the
Regional and State level, to improve the process by which ambient-based numeric standards are
developed and adopted.


Background to Regional Response:

        It is particularly important to improve the written justification that is made available for
public comment and included in the record. The Region intends to continue its efforts to work
with the State on this issue and to carefully review ambient-based numeric standards submitted to
EPA for approval/disapproval.

       The Region believes that Colorado’s provision authorizing ambient-based numeric
standards is acceptable under current federal requirements. As explained in EPA Region 8
correspondence with the Colorado Water Quality Control Division dated September 5, 1997:




                                                        31                Report No. E1HWF8-07-0004-9100093
                                                                            Colorado Water Quality Standards,
                                                                            Monitoring, and Reporting Program
       EPA approved the State’s ambient-based criteria provision, despite the lack of explicit authority in
       40 CFR 131.11, because of our determination that in situations where “human caused conditions”
       or “naturally occurring pollutant concentrations” may be a basis for removing the designated use
       under 40 CFR 131.10(g), it is more protective and therefore also acceptable to maintain the
       designated use and establish ambient-based criteria. It was also our conclusion that, in either of
       these two situations, such criteria would protect the aquatic life use that currently exists or is
       attainable. In the “human caused conditions” situation, admittedly, such waters may not be able to
       support the full range of aquatic species that the natural habitat and water quality would support,
       but if the existing water quality conditions truly are irreversible, establishing ambient-based
       standards will ensure that existing conditions do not deteriorate further and provide protection for
       the aquatic species that constitute the existing and potential aquatic community in the segment.

        The Region believes that there is a need to improve the State’s methodology for developing
and adopting ambient-based numeric standards. Our September 5, 1997 correspondence with the
State recommended that the Water Quality Control Division prepare a document that clarifies its
policies and procedures for ambient-based criteria. We specifically suggested that such a document
would need to cover procedural issues, establish methods and policies addressing “natural” and
“irreversible man-induced” sources, identify minimum elements of a rationale supporting ambient-
based criteria, and identify situations where other options may be more appropriate than ambient-
based standards (e.g., temporary modifications or variances). We intend to continue working with
the State to improve its process for establishing ambient-based numeric standards and to carefully
review ambient-based numeric standards submitted to EPA for approval/disapproval.


Recommendation 3-1.

       Provide technical assistance to help Colorado formulate a long range plan to expand its monitoring program
       to include advanced testing techniques.

EPA Region 8 Response:

        The Region agrees with the recommendation; chemical-specific water quality testing alone
does not provide all the necessary information to determine the biological condition of waters. The
Region also agrees that additional monitoring data (which include biological monitoring as well as
physical habitat indicators, tissue chemistry, sediment chemistry, pathogens, and toxicity testing,
where appropriate) would provide Colorado with a better basis for determining the effectiveness of
its water management program and answer the question: What is the condition of State waters?

Background to Regional Response:

        The fact that Colorado's program focuses on chemical-specific water quality testing is not
surprising. For the past 20 years, EPA's water quality standards and permitting programs have
emphasized a chemical-specific approach to water quality. Colorado's monitoring program, which
supports water quality standards and permitting, has reflected this historic approach. In the past


                                                       32                 Report No. E1HWF8-07-0004-9100093
                                                                    Colorado Water Quality Standards,
                                                                    Monitoring, and Reporting Program
several years, EPA's water quality standards and permitting programs have emphasized more
advanced techniques such as biological criteria. And while there is not yet a long range plan in
place, Colorado has employed several more advanced testing techniques including biomonitoring,
habitat assessments, and toxicity testing. In addition, Colorado, like other interior Western States,
has had to operate its ambient monitoring and assessment program under a chronic shortage of
resources. Only this year has the Section 106 grant funding formula been revised to better reflect
the needs of Western States and their ambient monitoring programs. EPA's monitoring and
assessment regulations, guidance, and policies are not specific regarding what constitutes an
adequate monitoring and assessment program and do not provide clear priorities for directing
limited resources.

        There are several activities in the Region that will serve to provide technical assistance to
Colorado in long-range planning to expand its monitoring program. First, the Region is developing
a 5-year plan for developing Regional and State capabilities in biological monitoring and assessment.
Colorado's technical assistance needs will be part of this plan. Limited financial resources are
available from EPA Headquarters to meet some of these needs through contracts for technical
assistance. This Regional 5-year plan can serve as a basis for Colorado's long-range plan. One
example of technical assistance that will be part of this 5-year plan will be technical support to
Colorado for a database for biological data that also includes some data analysis capabilities. Such a
database is currently being developed under an EPA contract with Headquarters, and will soon be
available to State programs. The Region plans to work with Colorado to incorporate their existing
data into this database, and to provide training on database use for future information management
needs. Clarification of additional needs for technical assistance in the area of biological monitoring
and assessment will take place during State visits as well as during a Regional biological monitoring
and assessment workshop to be scheduled in the next few months.

         A second Regional activity that will provide technical assistance to Colorado for long-range
planning is the Region's involvement in EPA's Environmental Monitoring and Assessment
Program (EMAP) Western Pilot. The EMAP Western Pilot will be carried out in partnership with
EPA's Office of Research and Development, the States, and other monitoring agencies. One
objective of this project is the development of needed environmental indicators appropriate for
characterizing the ecological condition of water resources. We will be meeting with Colorado and
other Western States to discuss their involvement in this project and identify assessment questions.
Within Colorado, biological, chemical, and habitat data will be collected and analyzed. A long range
strategic plan is currently being prepared by the Region's EMAP Western Pilot Coordinator, which
will address the involvement of Colorado's monitoring and assessment program, including the
critical element of technology transfer.

        The Region will continue to work with Colorado, through the Continuing Planning Process
and the Performance Partnership Agreement (PPA), to incorporate activities and measures as
appropriate, to support long-range planning for water quality monitoring, assessment, and
reporting.




                                                  33              Report No. E1HWF8-07-0004-9100093
                                                                           Colorado Water Quality Standards,
                                                                           Monitoring, and Reporting Program
Recommendation 3-2.

       Request that Colorado develop and implement a process to obtain and use other sources of organic pollutant
       monitoring or monitor for organic pollutants themselves.


EPA Region 8 Response:

       The Region agrees with the recommendation.

Background to Regional Response:

         The Region is concerned that Colorado does not have a process to obtain data for organic
pollutants, such as pesticides and herbicides, for use in water quality assessments. The Region will
request that Colorado develop and implement a process to obtain and use such data, as part of their
own monitoring program or from other state divisions and federal agencies. Given that other state
divisions and federal agencies do monitor and test for organic pollutants, the Region believes more
progress can be made by developing a structured process for obtaining organic pollutant data from
these sources. This agrees with EPA's long-term 305(b) goal of increasing input from monitoring
sources outside of the core State program.

         The Region notes that Colorado's Water Quality Control Division is currently forming a
Colorado Water Quality Monitoring Committee, which is made up of representatives of various
entities (i.e., local, state, and federal agencies, academia, industry, and non-profits) that conduct
water quality monitoring in Colorado. This Committee should serve as a good forum for
improving coordination and data-sharing. The Region has a representative on this committee, and
we will request and encourage data sharing and the development of structured processes for filling
data gaps in Colorado's monitoring program. In addition, data-sharing should be improved by the
use of EPA's modernized STOrage and RETrieval (STORET) water quality database by agencies
and groups in addition to Colorado's Water Quality Control Division. The modernized STORET is
more user-friendly and better captures the types of data and information which allow for data-
sharing, and their use and technical support is strongly supported by the Region.

         To ensure that there is adequate coverage for monitoring and assessment in Colorado, the
Region will ask for monitoring work plans and monitoring strategies. The development of work
plans and strategies should serve to identify which parameters will be measured by Colorado's
monitoring program and where. They will also allow for pro-active coordination with other
monitoring agencies or groups for obtaining additional parameters as well as water quality data from
locations not monitored. In addition, the work plan and strategy should include a section on
coordination, where Colorado can identify other agencies or groups with data and information that
can support Colorado's ambient monitoring and assessment program, and describe the processes
that will be used for data sharing.




                                                      34                 Report No. E1HWF8-07-0004-9100093
                                                                            Colorado Water Quality Standards,
                                                                            Monitoring, and Reporting Program
Recommendations 4-1 and 4-2.

        Persuade Colorado to follow the national guidance in preparing the water quality assessment report and
        include complete, accurate information.

     Work with Colorado to develop a database to maintain water quality assessment data.
EPA Region 8 Response:

        The Region agrees with both recommendations.

Background to Regional Response:

        The Region agrees that Colorado did not follow the recommendations in the national
guidance, specifically the preparation of tables of the percent of assessed waters (river miles and lake
acres) fully, partially, or not supporting each individual use classification. We note that States are
not required but encouraged to follow national guidance. In this particular instance, though, EPA
has strongly encouraged and supported the States in presenting their assessment information in the
formats described in the national guidance and presented in the appendices of the National Water
Quality Inventory Report to Congress for several reasons. First is to ensure consistency in
reporting of 305(b) assessment data such that State data can be aggregated into a national summary
for use by the Congress, the public, and others. Second, the 305(b) data presented in these tables
are also the Core Performance Measures that EPA will use for reporting progress under the
Government Performance Results Act. Colorado has committed to reporting this information as
part of the PPA.

        Colorado's 1996 305(b) report presented assessment data tables such as (1) State summary
data on overall use support and (2) miles and lake acres meeting, not meeting, and not attainable for
fishable and swimmable criteria. One target audience for Colorado's 305(b) report is the State's
Water Quality Control Commission, and this presentation of data met their needs for information.
These tables do not translate into the tables requested by EPA, which identify the percent of
assessed miles and lake acres fully, partially, or not supporting each individual use classification.
One solution to this incompatibility of data is the development and use of a database for water
quality assessment data, which can sort and present the data into the specific formats requested by
various audiences. An assessment database will enable Colorado to meet the information needs of
both the State and EPA, as well as other users of assessment information such as local
governments, citizens and watershed organizations.

       EPA's old assessment database, the WaterBody System, was not user-friendly and was not
adopted by all States nor supported technically by the Region. Colorado did not use the
WaterBody system and did not develop or use an alternative assessment database. Instead,
Colorado carried out assessments using data downloads from STORET, EPA's water quality
database. EPA Headquarters, through a contractor, is currently developing a new Assessment
Database, which will address many of the shortcomings of the WaterBody System. Colorado has
undertaken the first steps towards using this database by working with EPA's contractor to identify


                                                        35                Report No. E1HWF8-07-0004-9100093
                                                                          Colorado Water Quality Standards,
                                                                          Monitoring, and Reporting Program
waterbody segments that will serve as the spatial framework for this database. This work has been
completed, and next steps are to incorporate the data from State assessments into the database
once a final version is distributed by EPA. The Region plans to provide technical support for this
database, and work with Colorado to ensure its use. Colorado should be able to report assessment
information in EPA's requested format for the year 2000 305(b) report. Thus, the Region agrees
with and is committed to the recommendation to work with Colorado to develop a database to
maintain water quality assessment data.

         The report indicates that “Colorado made presumed assessments by classifying waterbodies
as fully supporting in the absence of organic pollutant monitoring data.” The Region agrees with
the national guidance that “presumed assessments” (e.g. determining that a waterbody is in full
support in the absence of sufficient information to make an assessment) are not appropriate. The
Region will work with Colorado to prevent such presumed assessments from being used. However,
the Region does support State assessment determinations of “evaluated waters”, consistent with the
national guidance. Evaluated waters are those waterbodies for which the use support decision is
based on information other than current site-specific ambient data, such as data on land use,
location of sources, predictive modeling, and questionnaire surveys of fish and game biologists.
The Region supports State discretion in making determinations of impairment, particularly in
situations where obvious problems occur, in order to more efficiently utilize limited ambient
monitoring resources. We also recognize that Colorado cannot directly monitor for all possible
types of data in order to conduct use support determinations.

Recommendations 5-1 and 5-2.

       Clarify Region 8's role and commitment for providing technical and program support to Colorado's
       monitoring and assessment programs.

       Identify weaknesses and areas of improvements for Colorado's monitoring and assessment programs and
       assist in the implementation of corrective actions.

EPA Region 8 Response:

       The Region agrees with both recommendations.

Background to Regional Response:

        The Region has recently expanded the monitoring and assessment program staff in several
areas including several new full-time and part-time positions to provide support to the Region's
monitoring and assessment program activities, one new student intern position, and part-time
support from several program areas including biologists at the Region's laboratory. There are plans
to add two temporary full-time positions to provide technical assistance for Regional monitoring
projects. In addition, the Region has hired a new full-time water quality database administrator.
These recent increases in staff provide added capacity to devote to issues and needs identified with
Colorado's monitoring and assessment programs.


                                                      36                Report No. E1HWF8-07-0004-9100093
                                                                   Colorado Water Quality Standards,
                                                                   Monitoring, and Reporting Program
        The Region has provided technical and program support to Colorado's monitoring and
assessment programs in the past, and will continue to do so in the future. Relatively recent
technical support efforts included Regional workshops supporting biomonitoring and
bioassessment, and Regional participation in Colorado's Sediment Task Force which developed
implementation guidance for determining impacts to aquatic life by the deposition of sediment.
Past program support included review of monitoring work plans when provided, workshops
supporting the 305(b) process, review of 305(b) reports, and contract support for spacial display of
waterbody segments.

         Present and planned technical and program support activities include support to Colorado
for several EPA water quality and assessment databases (including the modernized water quality
database STORET, an assessment database, and a database for biological data). We will continue to
provide technical support to Colorado on biological monitoring/bioassessment. Our Region's and
Colorado's involvement in the EMAP Western Pilot and our completion of the Regional-EMAP
project in Colorado headwater streams will allow for technical transfer opportunities regarding
monitoring designs and improved environmental indicators. Our Region's and Colorado's
involvement with the National Fish Tissue Study as part of the Clean Water Action Plan will reduce
the uncertainty associated with current fish tissue monitoring activities, and eventually provide
Colorado with comprehensive information on the severity and extent of fish tissue contamination
in the state. The Region will continue to support the formation of a Colorado Water Quality
Monitoring Committee through active participation, which we view as very important towards
improving data-sharing and coordination among the multiple monitoring agencies and groups in
Colorado. In addition, the Region provides financial and technical support for monitoring
activities in Colorado as part of the nonpoint source program, TMDL program, and several other
water quality management programs.

         Concerns and areas of improvement for Colorado's monitoring and assessment programs
will be identified as part of a state visit/program review, to be conducted in Colorado during FY99.
In addition, we will continue to participate in the Continuing Planning Process, the PPA process,
and other planning activities.




                                                 37              Report No. E1HWF8-07-0004-9100093
                                                                    Colorado Water Quality Standards,
                                                                    Monitoring, and Reporting Program

                                                                               APPENDIX II
                                     STATE RESPONSE

February 2, 1999

Bennie S. Salem
Divisional Inspector General
U.S. Environmental Protection Agency
Office of the Inspector General
Central Audit Division
726 Minnesota Avenue
Kansas City, KS 66101

       Re: Audit Report E1HWF8-07-004-XXXX

Dear Ms. Salem:

Enclosed are Colorado’s comments on the draft report of the Colorado’s Water Quality Standards,
Monitoring, and Reporting Audit. We appreciate your recognition of Colorado’s achievements. We
are proud of these efforts and are continually striving to improve our program. We would also like
to recognize the good working relationship with Region 8 EPA, that has evolved over the years.
Their support and technical advice in the areas of monitoring, standards and assessments have been
invaluable.

We appreciate the opportunities you have afforded us to review several of the issues that were
identified at the preliminary stages of the audit process. This dialogue has resulted in many important
clarifications and improvements in the evaluation. However, in review of the report we found the
following two facts regarding our program to be inaccurate or potentially misleading to the reader:

1.     On page 6, regarding adoption of “swimmable” uses where evidence that the use is in place
       for a specific stream segment. There still appears to be confusion between class 1 and class
       2 recreation. Although the term “non-motorized travel” is evidence of recreation, it is not
       evidence of class 1 recreational use (please see the regulations). Rather, this term has been
       used to refer to hiking or wading through a stream. Kayaking and tubing are recognized as
       class 1 uses (see 31.13(1)(a)); however, there is no documented use in the specific segment
       in question (North Fork of the Gunnison River, segment 3). Examination of OIG’s
       supporting documentation bears out that Colorado has correctly assigned recreational use
       classifications, according to our regulations. Moreover, we believe that Colorado’s EPA-
       approved definition of which recreational uses should be class 1 (based on the likelihood of
       ingesting water) continues to be appropriate.



                                                  38              Report No. E1HWF8-07-0004-9100093
      Colorado Water Quality Standards,
      Monitoring, and Reporting Program




39   Report No. E1HWF8-07-0004-9100093
      Colorado Water Quality Standards,
      Monitoring, and Reporting Program




40   Report No. E1HWF8-07-0004-9100093
                                                                  Colorado Water Quality Standards,
                                                                  Monitoring, and Reporting Program


                      Colorado Department of Public Health & Environment
                                Water Quality Control Division’s
                                      Comments Regarding
               Colorado’s Water Quality Standards, Monitoring and Reporting Audit



EXECUTIVE SUMMARY
We recommend the Regional Administrator
           #      Work with Colorado to improve its support for water quality standards decisions
                  and disapprove future water quality standards submissions which lack adequate
                  analysis and support.
Colorado Response:
We welcome EPA Region 8's continued involvement in our standards-setting process and
appreciate the Region’s willingness to work with us on the front-end of the process, rather than
just at the approval/disapproval stage. The high level of technical and scientific involvement
offered by the Region over the past 20 years has helped make Colorado’s programs very
successful.


           #      Assist Colorado in increasing the comprehensiveness of its state water quality
                  monitoring program.
Colorado Response:
Colorado welcomes EPA Region 8's continuing involvement in the development of annual and
long-range monitoring plans. We rely on their participation as we broaden our scope and
continue to work with a full range of stakeholders to enhance our water quality monitoring
efforts.


           #      Urge Colorado to follow national guidance in preparing the water quality
                  assessment report.
Colorado Response:

Revised 2/8/99                                   41              Report No. E1HWF8-07-0004-9100093
                                                                   Colorado Water Quality Standards,
                                                                   Monitoring, and Reporting Program
Colorado is committed to an ongoing process of improving the usefulness of our water quality
assessment reports and increasing their consistency with national goals. Colorado is working
closely with Region 8 to provide the information necessary to assist EPA in preparing the national
water quality assessment report.


        #        Develop procedures to oversee and evaluate Colorado’s water quality testing,
                 assessing, and water quality assessment reporting.
Colorado Response:
Colorado welcomes EPA’s assistance in our ongoing efforts to continually enhance our water
quality testing, assessing, and water quality assessment reporting. We have invited Region 8 to be
a partner in the Colorado’s newly formed “Colorado Monitoring Council” which is intended to
improve not only the Water Quality Control Division’s testing, assessing and reporting
procedures, but also that of our many federal, state, local and private partners.


CHAPTER 2
We recommend the Regional Administrator:
        2-1      Work with Colorado to adopt the national swimmable use classification and
                 corresponding criteria limits where attainable, or conduct the required special
                 studies with consideration of basinwide special studies. Disapprove Colorado
                 water quality standard submissions which do not comply with these options.
Colorado Response:
Colorado acknowledges that more documentation is desirable to support decisions regarding
adoption of recreational use classifications. Colorado has recently implemented a procedure to
address this concern at the time of the basin triennial review and subsequent rulemaking hearings.
This will include providing the Water Quality Control Commission (and EPA) with completed
Recreational Use Attainability Analysis forms that will be a structured assessment of the factors
affecting the attainment of the “swimmable” use.




Revised 2/8/99                                   42               Report No. E1HWF8-07-0004-9100093
                                                                     Colorado Water Quality Standards,
                                                                     Monitoring, and Reporting Program
However, we believe that the OIG auditors have mis-characterized Colorado’s adherence to
regulatory policy by asserting that Colorado has not adopted swimmable use classifications where
there is evidence that the use is in place. Colorado has two different recreational use
classifications: recreation class 1 and recreation class 2. Recreation class 1 is the classification
that meets EPA’s criteria as “swimmable”. Colorado has explicit regulatory definitions of what
activities are considered class 1 and class 2 recreational activities, based on the likelihood of
ingestion of small quantities of water. Wading, fishing and camping are not considered evidence
of class 1 recreation (i.e. activities in or on the water when the ingestion of small quantities of
water is likely to occur). For the “swimmable” use protection to be applied, evidence of
“recreation” is not enough; it must be evidence of class 1 recreation. Region 8 EPA has been
aware of Colorado’s distinction between class 1 and class 2 recreation since its adoption in its
current form in 1991. The agency has never questioned or contested this regulatory distinction.
OIG has substituted its own concept of what “ought to be” swimmable, instead of relying upon
Colorado’s established and approved regulatory definition.


Upon examination of the supporting evidence provided by OIG, the 16 instances of purportedly
inappropriate classification are were actually correctly classified. Class 1 recreational activities
are not documented in those segments. Kayaking and tubing were not documented in the
segment in question, and “non-motorized travel” and “occasional wading” are not evidence of
class 1 or “swimmable” uses in Colorado.


        2-2      Recommend Colorado consistently adopt Clean Water Act criteria designed to
                 protect human health for all waters classified for drinking water supply.
Colorado Response:
Colorado believes that OIG has mis-characterized Colorado’s implementation of human health
protection standards. Colorado has adopted human health standards for all pollutants for which
EPA has developed Clean Water Act criteria. EPA has established criteria based upon exposure
through two pathways: first, ingesting contaminated fish flesh; and second, ingesting


Revised 2/8/99                                     43               Report No. E1HWF8-07-0004-9100093
                                                                   Colorado Water Quality Standards,
                                                                   Monitoring, and Reporting Program
contaminated fish flesh plus drinking the water in which these fish reside. In addition to these two
human health protection approaches, Colorado has established standards a third way. Where
there is only a water supply use, we have adopted criteria from the Safe Drinking Water Act.
Colorado has not adopted more restrictive EPA criteria that provide an additional level of
protection to protect against the combined risks of drinking water and fish ingestion unless there
was reason to believe that significant fishing occurs for the waters in question. Colorado has
consistently applied this approach. Furthermore, EPA Region 8 has determined that this approach
is protective of human health and is consistent with federal requirements.


        2-3      Continue to encourage Colorado to develop written justification supporting the
                 appropriateness of adopting ambient-based criteria and disapprove water
                 quality standards submissions that include inadequate analysis.
Colorado Response:
Colorado acknowledges that more documentation is desirable to support decisions regarding
adoption of ambient standards, particularly in triennial reviews subsequent to their initial adoption.
Colorado has recently implemented procedures to ensure that the triennial review records are
more instructive regarding the history of the segments in question. The Division will identify
when the existing standards were adopted and recap the basis for the decisions in the Rationale
document. An analysis of whether there is a basis for maintaining ambient standards in light of
existing conditions will also be provided.


CHAPTER 3
We recommend the Regional Administrator:
        3-1      Provide technical assistance to help Colorado formulate a long range plan to
                 expand its monitoring program to include advanced testing techniques.
Colorado Response:
Colorado is committed to improving its monitoring program and sees the refinement of our
monitoring program as an ongoing, evolutionary process. We welcome any technical assistance


Revised 2/8/99                                   44                Report No. E1HWF8-07-0004-9100093
                                                                 Colorado Water Quality Standards,
                                                                 Monitoring, and Reporting Program
that EPA Region 8 can provide us towards this end. At the state level, we have already taken a
significant step towards improvement by convening a Statewide Monitoring Council in November
1998. Participants on this council include representatives from government (including EPA),
academia, the regulated community and citizens groups involved in water quality monitoring in
Colorado.


With regard to the OIG’s portrayal of Colorado’s monitoring program as lacking in advanced
techniques, we are uncertain what the OIG means by the term “advanced”. Colorado interprets
this to mean that the state does not have the most desirable balance, in OIG’s opinion, of
different types of monitoring activities. Indeed, Colorado’s program has placed the greatest
emphasis on water chemistry, due to both the strong numeric water quality standards program
that has been developed in Colorado, and the recent national emphasis on identifying impaired
water bodies and developing total maximum daily loads (TMDLs). This is not to say that the
state has completely neglected other types of monitoring. As stated by the OIG, we do conduct
biological and physical monitoring including macroinvertebrate surveys, fish population surveys,
and habitat surveys. We are currently expanding our capabilities to increase these types of
monitoring and assessments within the constraints of multiple competing priorities for time and
resources.


Region 8 EPA has provided Colorado with substantial assistance and guidance in biological and
habitat monitoring through various means. Regional staff members have conducted
bioassessment workshops and individuals have participated on Colorado’s advisory committees
for developing biological monitoring methods and for developing methods to assess clean
sediment impacts to aquatic life. Colorado welcomes the continuation of this type of
involvement in the future. We have asked for assistance in the installation and implementation of
a STORET-compatible database for biological and physical habitat data, and we will be working
with Region 8 in developing a comprehensive long-term monitoring strategy.




Revised 2/8/99                                  45               Report No. E1HWF8-07-0004-9100093
                                                                  Colorado Water Quality Standards,
                                                                  Monitoring, and Reporting Program
        3-2      Request that Colorado develop and implement a process to obtain and use other
                 sources of organic pollutant monitoring or monitor for organic pollutants
                 themselves.
Colorado Response:
Colorado’s surface water monitoring program presently does not include monitoring of organics
such as pesticides and herbicides because (1) it has been our observation that organic chemicals
attributable to agricultural activities have rarely been found in harmful concentrations in Colorado
surface waters, and (2) due to the very high costs of monitoring these compounds, we have relied
on data collected by other programs or other agencies while focusing our available resources on
higher monitoring priorities. For example, over the past three years approximately 300
groundwater wells, many located in major agricultural areas of the state, have been tested for
nutrients, pesticides and herbicides by the Division’s groundwater program. We consider data
collected by the U.S. Geological Survey in our assessments. The U.S. Geological Survey has
monitored agricultural chemicals in their National Water-Quality Assessment Program
investigations in the Rio Grande, South Platte River, and the Upper Colorado River basins.
Drinking water systems in Colorado sample their source water for a broad suite of organic
chemicals, including pesticides and herbicides.


Colorado welcomes ideas for a better means to incorporate organic chemical monitoring data into
our assessments and will explore, with Region 8 EPA, the need and opportunities for organic
chemical monitoring by the state in our efforts to develop a long-term monitoring strategy.


CHAPTER 4
We recommend the Regional Administrator:
        4-1      Persuade Colorado to follow national guidance in preparing the water quality
                 assessment report and include complete, accurate information.
Colorado Response:
Colorado shares EPA’s national concern that currently, because of inconsistent reporting of water


Revised 2/8/99                                    46             Report No. E1HWF8-07-0004-9100093
                                                                  Colorado Water Quality Standards,
                                                                  Monitoring, and Reporting Program
quality among states, EPA has difficulty aggregating this state data to provide comparisons and
analysis on a national scale. EPA must grapple with the results of contradictory themes in the
Clean Water Act: flexibility and consistency. On the one hand, the CWA directs the States and
Tribes to develop standards systems and water quality management programs that fit their
individual needs. This leads inevitably to different and unique systems in every state. On the
other hand, EPA is directed to ensure a base level of protection for the nation’s waters and to
report on the condition of the nation’s waters to Congress. This is tremendously difficult if there
are more than 50 different systems to reconcile.


Colorado acknowledges that we do not currently follow the entire body of national guidance in
preparing the water quality assessment report, although we do meet all regulatory reporting
requirements. OIG might acknowledge that “guidance” is advisory, not binding. Colorado is
committed to making ongoing progress towards a complete, accurate and comprehensive water
quality assessment report. Colorado’s 1998 305(b) Report is evidence of that commitment and
that progress. Within the constraints of available resources, Colorado is also committed to
increasing the consistency of its assessment reports with federal guidance.


        4-2      Work with Colorado to develop a database to maintain water quality assessment
                 data.
Colorado Response:
Although EPA does not require a water quality assessment database, Colorado agrees that a
database to maintain water quality assessment information would improve our ability to report the
types of information that EPA desires. Colorado maintains extensive documentation of all water
quality assessment decisions in the Statements of Basis and Purpose. To have these assessments
summarized in a database could make them more accessible and easier to report. We look
forward to receiving the newly revised Water Body System database from EPA Headquarters
when it becomes available (possibly as early as February 1999). Colorado and Region 8's
resources should not be spent duplicating Headquarters activities, especially in view of EPA’s


Revised 2/8/99                                     47             Report No. E1HWF8-07-0004-9100093
                                                                 Colorado Water Quality Standards,
                                                                 Monitoring, and Reporting Program
concern about national consistency (see 4-1 above).


CHAPTER 5
We recommend the Regional Administrator:
        5-1      Clarify Region 8's role and commitment for providing technical and program
                 support to Colorado’s monitoring and assessment programs.
Colorado Response:
Colorado continues to welcome the contributions from Region 8 technical staff to our standards,
monitoring and assessment programs. The individuals on EPA’s staff have continuously assisted
us with issues as varied as technical expert testimony on complex standards issues, to
participating on multi-month work groups on developing clean sediment assessment guidance.
Their time and assistance has been much appreciated and we look forward to continuing this
valuable interaction in the future.


        5-2      Identify weaknesses and areas of improvement for Colorado’s monitoring and
                 assessment programs and assist in the implementation of corrective actions.
Colorado Response:
Colorado welcomes the opportunity to work with Region 8 staff in our ongoing efforts to
continually enhance our monitoring and assessment programs.




Revised 2/8/99                                  48               Report No. E1HWF8-07-0004-9100093
                                     Colorado Water Quality Standards,
                                     Monitoring, and Reporting Program

                                               APPENDIX III
       ABBREVIATIONS




CFR    Code of Federal Regulations
DIMP   Diisopropymethylphosphonate
EPA    Environmental Protection Agency
OIG    Office of Inspector General




                49              Report No. E1HWF8-07-0004-9100093
                                                               Colorado Water Quality Standards,
                                                               Monitoring, and Reporting Program

                                                                         APPENDIX IV
                                     DISTRIBUTION
Office of Inspector General
       Inspector General (2410)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspectors General for Audit


EPA Headquarters Office
       Assistant Administrator for Water (4101)
       Agency Followup Official (2710)
       Agency Followup Coordinator (3304)
       Associate Administrator for Regional Operations and State/Local Relations (1501)
       Associate Administrator for Congressional and Legislative Affairs (1301)
       Associate Administrator for Communications, Education, and Public Affairs (1701)


EPA Region 8
       Assistant Regional Administrator, Ecosystems Protection & Remediation
       Director, Ecosystems Protection Program
       Audit Followup Coordinator


Regional Offices
       Regional Administrators


Colorado Department of Public Health and Environment
       Director
       Division Director, Water Quality Control Division



                                                 50          Report No. E1HWF8-07-0004-9100093
